Brian E. Harriss
6023 Harriss Hammond Rd
Harlem, GA 30814
January 24, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Brian E. Harriss v. Commissioner of Internal Revenue
Petition for a Writ of Certiorari
Supreme Court Rule 33.1(h) Certificate of Compliance

Dear Mr. Harris:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ of
Certiorari contains 6,601 words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury under
the laws of the United States of America that the foregoing is true and correct.

Brian E. Harriss

